     y.




                           WORKING TOWARD JOBS


                       The County of San Diego
          Greater Avenues for Independence (GAIN) Program




          EIlVICE$.

                   (;J'





'0



          "dJa

OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALUA TION AND INSPECTIONS
                                                       MAY 1990
                                 _lti I8"
                    The County of San Diego
       Greater Avenues for Independence (GAIN) Program




                       Richard P. Kusserow

                        INSPECTOR GENERAL





OEI- 12-89-01329                                   MAY 1990

                          . . . . . . . . . . . .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .... .... .... ..... ..... ......................... ...
                                                                                                                                         . . . "




INTRODUCTION


PROGRAM PROFILE.                                                                                                                                    ...............2

           THE COUNTY OF SAN DIEGO.                                                                                                                                                     . . . . . 2


           THE SAN DIEGO AFDC PROGRAM                                                                . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


           THE SAN DIEGO AFDC WORK PROGRAM                                                                                 . . . . . . . . . . . . . . . . . . . . . . 2


                   General Background. 

                   Administrative Issues                                                                                                                                                              . 3



                   Participation Issues. .                                                                                                                                          . . . . . . 6


                   Program Activities                                                                                                                                            . . . . . . . 8


Appendix A
            PROGRAM OVERVIEW STATEMENT                                                               . . . . . . . . . . . . . . . . . . . . . . . . . . A-

Appendix B

     SAMPLE DOCUMENTS                                                                                                                                                                          . . B- 1

                                                             ,:,:::,:::::
                                                             ::::::::::::
                                                             ::::::::::;:
                                                             :::;:;:;::::
                                                             :.:.:.:.:.:.
                                                             .:.:.:.:.:.:
                                                              ""'. ""




             This technical report is par of a series of
             profies on the Aid to Familes with Dependent
             Chidrn (AFC) work progrs parcipating
             in the Working Toward JOBS 
    project.

             Each profie              categorized
                           begis with a
             descrption of the subject AFC work program,
             which is based on mai guides submitted by the
             progr. Appendi A includes an overvew
             statement wrttn by the program manager. It
             descrbes the progr, its goals, philosophy and
             lessons leared. Appendix B is a sample of
             documents used to conduct the program. Each
             progr adinistrtor was asked to submit
             sample documents which they felt would be
             useful to States and counties developing JOBS
             progrs.
             Data collection for ths study was done from
             Apri to September of 1989. The inormation in
             the overvew and techncal report is based on
             pre-JOBS work programs for AFC recipients.
             As these progrs have converted to JOBS,
             they may have made some changes to meet
             JOBS legal and regulatory requirments.
             Where possible, we have noted the changes the
             progr administrtors anticipated at the time
             of our data collection.




The County of San Diego                   INTRDUCTION
 THE COUNTY OF SAN DIEGO

              Population: 2 327 684

              Major industres: services, retail trde, Government

              First quarer 1989 unemployment rate: 3. 8 percent
              Average annual income for a family of four: $36, 700
              Number of people living below the poverty line: 38, 932   familes


THE SAN DIEGO AFDC PROGRAM

              For Fiscal Year  (F) 1988:

              Tota costs: $304 650, 802

              Fedra shar: $151, 925 248; State share: $132, 355, 552

              AFC cases: 42 241 monthly average

              41,130 live in urban settngs; 337 in 

              Total case closurs: 46, 540

THE SAN DIEGO AFDC WORK PROGRAM


General Background

Name:          Greater Avenues for Independence (GAI). Thughout this technical report the
              term GAI wi be used to apply only to the GAI program in the County of San
              Diego.

Operating Since: 
       October 5, 1987

Philosophy:          The underlying philosophy of the GAIN program includes the following
              basic assumptions: (1) AFC recipients desire to work and will do so if
              provided with the opportnity, (2) able- boded AFC recipients ar expected to
              work and to share responsibilty for meeting this expectation; and (3) the State
              and the counties have a responsibilty to provide a sufficient level of services to
              meet the need of parcipants.

              The stated progr goals in San Diego GAIN plan are: (1) to make maximum
              use of available community resoures in providig the ary of GAIN services in
              the most effcient and cost-effective manner, (2) to enable parcipants to attain
              the highest level of self-esteem , self-confidence and employment prepartion
              which ensures the maximum benefits of GAIN and the achievement of
              self-suffciency; and (3) to develop whatever additional resources are necessar to

The County of San Diego                         PROGRAM PROFILE
                  ensure maxum parcipation rates and the availabilty of the full range of
                  services needed by GAIN parcipants to achieve the full employment goal.

  Program Administrator:

        Richard W. Jacobsen, Jr.

        Dirctor, Deparment of Social Services

        County of San Diego, California

        1255 Imperial Avenue

        San Diego, CA 92101

                  (619) 338- 2888


  Administrative Issues

 Strcture:          The GAI program is admnistered by each county welfare deparment under
                 reguations developed by the State Deparent of Social Services (State DSS).
                 See the Offce of Inspector General "Working Toward JOBS: The California
                 Greater Avenues for Independence (GAIN) Prgram " inspection repon for
                 information on how GAIN works at the S tate level.

 Funding:           Program costs totaled $13, 022 903 for FY 1988. Supportve services costs in
                 FY 1988 were $1, 443, 895. Tota costs for FY 1988 were $ 14,466, 798. These
                 figues include some sta up costs and reflect
                                                                 grdual phase- in of the parcipant
                 caseload. They do not reflect full , on- going progr costs.

 Staff:          Social worker - 144 who perform case maagement, trning brokering, job
                 servces, PRE (GAIN' s community work experience program), slot development
                 and monitoring, job placement services, job development services, and
                 employment counselig.


                 Intermediate clerk tyist - 7   who act as receptionists.

                 Intermediate account clerk - 16 who act as payment clerks (for emergency
                 trsponation and ancilar costs).
                 All of the above work full- time on duties supportng the GAIN program. These
                 staf figures reflect the number of frnt   line personnel. The GAIN program
                 supervisors, additional clerical staf and admnistrtors are not included.

Success Measurements: 
         San Diego measures the success of its GAIN progr
                 trcking the number of parcipants (overall and by component), number who
                 enter employment, and AFC grt savings.

Recordkeeping:            The GAIN progr belongs to a consortum of counties in California
                 who receive computer services through the Welfare Case Data System. The


The County of San Diego                              PROGRAM PROFILE
         Welfare Case Data System has developed and implemented the GAIN
         Informtion System. This is an on- line data system that provides support for
         AFC eligibilty technicians and GAIN service workers. An automated interface
         between eligibilty and GAIN staf provides an effcient communication link with
         a corresponding reduction in paper work. The GAIN Infonnation System
         supports GAIN sta by providing:

                     on line collection of paricipant personal data;

                     employment history and GAIN test results;

                     automated scheduling of GAIN activities;

                     parcipant tracking;

                     county plan control;
                     a tickler system with alerts for futu review;

                     automated notices and corrspondence;

                     a HELP featue that allows expansion by the county;

                     an ongoing interface between eligibilty and GAIN staf;

                     a supportve services payment system;
                     caseload management reports;
                     management and statistical reports; and

                     financial and claiming reports.


        The GAI progr also uses         GAI,          a data base management informtion
        system that was developed by the San Diego County Deparent of Social
        Servces (county DSS) workig in cooperation with the adult education providers.
        The system tracks the individual client s attendance and progress at the learing
        center, durng the client s parcipation in the basic education component of
        GAI. The contrctor s clerks ar responsible for entering referr, attendance,
        and progress information into the system from attendace and test score records.
        The   GAIN         aggregates this information into time specific report of the
        activities of the specific learing center and/or other adult education providers.

        The GAIN progr also uses GAIN ASSESSMENT , a data base,
        telecommunication, management information system that was developed by the
        county DSS working in cooperation with four community colleges ' assessment
        contrctors. This management information system trcks the individual clients
        thugh the assessment process. The assessment contrctors enter the referral
        information , the time and tye of assessment completed, assessment results and
        assessor s vocational recommendations. The GAIN ASSESSMENT system
        allows the information for individual clients to be aggrgated into time specific
        reports by individual and/or by contrctor.




The County of San Diego                     PROGRAM PROFILE
Provision of Services: 
   State guidelines for the development of the county GAIN plan
            mandated that existing publicly funded resoures be utilized before any GAIN
            funds could be alocated to create additional resources. Also, for any GAIN
            service to be contrcted out, the first option should be a public agency that is
            already providing the same or a similar service.

            In San Diego, it was decided to continue the successful model developed under
            the previous Employment Preparation Program (EPP) by continuing to provide
            job services using co- located State Employment Development Deparent (EDD)
            staf and county GAIN staf. Moreover, community work experience (which
            GAIN calls PREP) would contiue to be operated diectly by county GAIN staf.

            Other servces such as education,   assessment and vocational traiing   were not a
            par of EPP and   would be contrcted out. Meetigs were held with numerous
            public agencies includig school distrcts, community college distrcts, and tpe
            local Job Trang Parership Act (ITA) Service Delivery Ara (SDA). A
            consortum of school distrcts emerged who were willng to take on provision of
            GAI education services. Simiarly, a group of community college distrcts
            agreed to perfonn GAIN assessment services, and the SDA agreed to admnister
            GAIN funded trning services.

            Although under EPP child car services were provided dictly by county staff,
            the complexity of the GAIN progr caused San Diego to look at service
            delivery alternatives. State guidelines requird coordination with the local child
            care resoure and referr agency. Contacts with the Young Men s Chrstian
            Association (YMCA) Child Resource Servces RS) developed into an excellent
            relationship and a contract to provide GAIN child car services. The CRS staff
            are co-located at each GAI offce to provide effcient and effective child care
            servces beginning with the parcipant s initial contact with GAIN and continuing
            thughout GAIN activities.

Outside Resources: 
     The GAIN contrcts with the State EDD for job search and job club
            servces. The EDD job searh/job club workers are co- located at GAIN site
            offces with the progr case managers.

            GAIN contrcts with YMCA CRS for child day-car development, child care
            provider contracting, and payment of " out of home " child care services. Further
            infonnation on this contract is included in the Program Activities section.

            GAIN contrcts with six school distrcts to provide adult basic education , high
            school equivalency, and English as a second language instrction in contrcted
            learing centers throughout   the county. These distrcts, with county DSS
            cooperation and parcipation, have also fonned a consortium for sharng ideas,
            experiences and technical knowledge. The GAIN Remediation Adult Delivers



The County of San Diego                        PROGRAM PROFILE
               (GRA) consortum also provides the schools and county DSS a forum for
               communication and uniform dissemination of information.

               GAIN contrcts with four community colleges to provide vocational assessment
               at community college sites located throughout the county.

Evaluations:        The Manpower Demonstrtion Research Corporation (MDRC) is
               conducting an evaluation of the California GAIN program. San Diego is a
               priar researh county. No report for San Diego has been completed.
Participation Issues



Partcipant Descriptors: 
       Curntly, 18, 324 AFC recipients and applicants
               registered for GAI. In FY 1988, 12 774 parcipated beyond registrtion. All
               GAI parcipants live in urban settgs. Of GAIN parcipants
                             43. 9 percent do not have a high school diploma or equivalent;
                             61.8 percent were employed for more than one out of the past
                             24-months;
                             13. 8 percent are working; and
                               8 percent ar                 percent are in their twenties, 40.
                                              under twenty, 33
                             percent ar in their thes, and al others ar 40 or older.

Target Groups:              Al non-exempt     AFC reipients      and volunteers ar targeted   by the
               GAI progr. However, specialed servces have been developed for teen-age
               parents and for parcipants with learg disabilties.

               As a result of the cooperative effort of a consortum of adult school and
               communty college disttcts, the Prvate Industr CounciIlegional Employment
               and Traig Consortum and county GAI sta, GAI is able to provide special
               education servces to those parcipants identified as having learing disabilties.

               With fundig
               testig van to
                               frm the ITA, a psychometrst has ben        hi
                                                                      to trvel via a mobile
                               any of the 19 GAI learg centers thughout the county. The
               psychometrst can test those parcipants who ar expriencing diculties makg
               prgrss at the learg cente for         spc learg disabilties. The GAI students
               deteined to be in nee of spal education serces can attnd the Alternative
               Learg Cente locate in the metrpolita San Diego ara. For any learing
               disabled parcipant who is unable to attnd the Alterative Learg Center beause
               of trspotion baners, the testig wi serve to identi the learg disabilty and
               alow the existig learg center to individualze the curculum in order to improve
               the student s chances of reachig the educational goal.




The County of San Diego                              PROGRAM PROFILE
              The GAI progr has also tageted specialze servces to pregnant and parntig
              teens who ar on AFC. The goal of the ten parnt progr is to provide positive
              intervention and supportve servces to assist ten parnts in completing their high
              school education. The GAI social workers designate as teen specialsts conduct
              outrach activities to pregnant and parnting teens who are AFC recipients.
              Speialze orientation and enrollment tae place at schools, community agencies and
              even at the teen s home if necessar. The specialsts work with the teens to develop
              chid care plans, provide for transporttion and ancilar needs, monitor attendace
              and progress in school , and provide counseling, encourgement and refeITs to
              communty resources as        nee
              Once these teen-age parnts complete high school, they are encouraged to
              parcipate in other GAIN activities in order to obtan marketable job skills.
              Thugh early intervention of intense, specially. targeted services, it is expected
              that many teen parnts can break the cycle of povert and dependence before it
              becomes fully established in their lives.

Mandtory           Activities/Sanctions:All non-exempt clients are required to register and
              receive orientation and appraisal. In FY 1988, 303 sanctions were imposed on
              clients who did not comply with the mandatory activities of the program.

Volunteers:          There are 1,409 volunteers, who tota   11 percent of   all parcipants.

              The GAIN progr has taen the followig steps to encourage volunta
              parcipation:. (1) a GAIN marketing campaign was conducted by State DSS in
              Apri and  May of 1988, using radio and television ads, bilboards and magazne
              and newspaper ads; (2) income maitenance eligibilty staf are I.egularly
              informed about the avaiabilty of GAIN servces to exempt recipients who wish
              to volunteer; (3) outrach effort are maintaned though presentations at
              community groups and parcipation in community activities such as job fais and
              community pride celebrations; and (4) adult schools, community colleges and
              private school and training providers are regularly informed of the availabilty of
              GAIN services for their recipient students who wish to volunteer.

Employmem Placemems: 
           In calenda year 1988 GAIN mae 8, 166 full- time and pan- time
              placements; 725 of these resulted in the closur of the AFC case. Typical work
              placements ar clerical, sales and servce industr, with an average stang wage
              $5. 59 per hour. A study of GAI parcipants who entere employment in June 1988,
              showed that 1 year later 59 percent ar off AFC, 11 percent ar on AFC but
              sti employed and 30 peent ar on AFC and no longer employed




The County of San Diego                          PROGRAM PROFILE
Program Activities

Models:         The San Diego progr adstrtor identied group job searh (job club) as the
               most effective activity overa, and most cost-effective component. (See the
               descrption in the progr activities section.

               Each of the programs profied was asked to describe two model practices. The
               GAIN model practices ar described below.

               GAIN/YMCA CRS: Though a process of community meetings held durng the
               planning phase of GAI, there emerged an innovative contract with the YMCA
               CRS. The CRS is the local child care resource and referral agency and, therefore,
               contrbutes both expertse and commtment to the ideal of qualty child care
               thughout the county. Innovative and effective featues of the GAIN child care
               contrct with   CRS include the following:

               The CRS is responsible for recritment and development of child car resources,
               provision to each parcipant of a choice of child care providers, argements and
               monitoring child care agreements and payments to child car providers.

               Assigned CRS staf    are co- located
                                                at each GAIN offce working along side case
               managers and other county staf as par of the " GAIN team . Co- location also
               emphasizes the importce of child care while providing for one-stop service
               delivery for GAI parcipants.

               The CRS sta    uti on-site compute temrals lied vi modm to a mater
               resoure and referr ditory. Ths on- lie systemalows GAI parcipants to
               reeive accurte, updted inontion about the availabilty of child car resources.

               THE GAI      LEARNG CENTER MODE: Major featues ar: (1) computer
               assisted instrction using state of the ar technology and softwar programs; (2)
               individualzed education plans which utilize a combination of workbooks,
               computer exercises, self- diected activities, classroom instrction , and personal
               attention diected towar the achievement of specific educational goals; (3) off
               campus " store front" locations to promote the image of a frsh opportnity rather
               than being forced to go back to school; (4) psychometrc testing and specialized
               services for parcipants identied as having learing disabilties, and (5) a
               cooperative relationship among the parcipating educational institutions, the local
               JTA SDA, and the county. Preliminar experience operating the learing centers
               indicates that parcipants are reaching their educational goals in as little as half
               the time they would spend in trditional classrom settngs.

 Sequencing:         Figure 1 shows the usual sequence of activities followed by GAIN
               parcipants.


 The County of Son Diego                          PROGRAM PROFILE
Here   s how   GAIN   works





         VII
Program Activities Listing: 
        What follows is a descrption of each of the GAIN progr
               activities. The cost and parcipation numbers in this section are from Fiscal Year
               1988. The FY 1988 cost figues include some star-up costs. Costs per
               parcipant wil be lower in later year.




Orientation
Activity:        The GAIN staf (1) inform parcipants of services available, parcipant
               responsibilties and appeal options, and definitions of exemption and deferral
               crteria; (2) help parcipants complete self-appraisal form; (3) provide an
               overvew of chid car services avaiable; (4) adinister the GAI apprasal test,
               (5) conduct one-on-one appraisals to determine readess to parcipate, needs for
               supportve servces, and referr to service providers. Parcipants then intervew
               with CRS sta to identiy chid care needs and make arangements with selected
               providers.

How Provided: 
             Done by GAIN and CRS sta.       Orentation   includes group activities,
               testig, and      one-on-one interviews.

Partcipants:              12,774.   Al AFC applicants and recipients must parcipate in this
               activity. At ths time some parcipants will be excluded from the GAIN program
               in order to meet the need for a control group (a group not receiving services
               whose outcomes can be compard to those of program parcipants) for the
               MDRC study of GAI.

 Costs:        $2,494 593;       $195. 29   per parcipant

 Anticipated Changes: 
             Mior changes wi be made in descrption of progr services,
               exemption and deferral crteria and parcipant responsibilties.        In addition
               motivation and self-esteem buildig activities wil be added.



 Assessment
 Activity:       A comprehensive evaluation of the parcipant s work history, job skills,
               educational competency levels, aptitudes, interests, needs for supportve services
               and chances of achieving employment goals.

 How Provided: 
        This service is contracted to four community college distrcts. The
               assessment is conducted using paper and pencil tests and inventories, work
               sampling and one-on-one interviews. Formal scheduled appointments are made
               with the assessor. Most assessments ar completed within a 2- day period.



  The County of San Diego                             PROGRAM PROFILE
Partcipants:            830. Assessment is parcularly appropriate for long-term recipients with
                 litte or no work history, or the margially employed or underemployed recipients
                 who go on and off aid with frequency.

Costs:           $980, 164;   $1180. 92 per paricipant.


Note:            See information on preliminar assessments conducted as   par of orientation.




Employabilty Planning


Activity:          The GAI cas manager, upon reeivig the assessment report, schedules an
                 appointment with the parcipant to review the results and recommendations of
                 the assessment and negotiate an employment plan.

How Provided: 
           This is done thugh one-on-one meetings between GAIN case managers
                 and parcipants.



Partcipants:            The 830 GAI      parcipants who completed the   assessment component,
                 went though employabilty planning.

Costs:           Included in assessments.




Supportive Services

Activity:          Include chid car, transporttion, and ancilar expenses    for such items as
                 tools, books, necessar clothng, etc. Supportve servces ar    provided as needed
                 to support clients ' parcipation in any GAIN activity.

 How Provided: 
          Supportve servces ar               individual interviews with
                                                   provided via
                 parcipants. Child car services including identification of providers,
                 argement of child care, payments to providers and resoure recruitment      and
                 development ar    provided by a   contractor, the YMCA CRS. Trasportation      and
                  ancilar expenses ar provided by county sta.


 Participants:          Over 60 percent of GAIN parcipants receive supportve services. In FY
                  1988, 4 340 parcipants received CRS child car.

 Costs: $1, 443, 895.




 The County of San Diego                             PROGRAM PROFILE
Basic Education, High School Equivalency, English as a Second Language

Activity:           Basic education , prepartion for the high school equivalency (GED) exam, and
                  English as a second language.

How Provided: 
            Provided by a consortum of high school and community college
                  distrcts. Computer-assisted   instrction usingstate of the ar technology and
                  softwar programs; individualized plans which utilze a combination of
                  workbooks, computer exercises, self- dicted activities, classroom instrction;
                  and personal attention dicted toward the achievement of specifc educational
                  goals. Loated in off campus, " store- frnt" locations. Psychometrc testig and
                  specialzed services for parcipants with learing disabilties are available.

 Partcipants:              810. Appropriate for parcipants who lack basic skills in reading or
                  math, who lack English language proficiency, and who lack a high school
                  diploma.

 Costs:           Tota of $3,426, 118; of that total JTA pays $984 842 (8 percent), the education
                  system pays $639, 975 and GAIN pays $1 800, 301. Expenditures per parcipant
                  in ths activity equal $1, 892.




  Post Secondary Education
  Activity:         Th component consists of (1) parcipants in approved self- initiated progrs,
                  and (2) those who have been referrd to ths component after assessment, in order-
                  to progrss withn employment plans negotiated between the clients and their case
                  managers.

  How Provided: 
           Prvided by community     colleges, State universities, and private
                   universities and colleges. Classrom   instrction.

   Partcipants:          Number unkown. This service is needed by those clients who
                   determined at assessment to be in need of additional education in order to achieve
                   career goals.



   Costs:          No county GAIN funds are spent on this service. Avaiable community resources
                   are suffcient to meet the need.




    The County of San Diego                           PROGRAM PROFILE
Group Job Search/Job Club

Activity:        Group job searh , caled job club under GAIN , is a 3 week activity. One week
               of classroom instrction is followed by 2 weeks of supervised telephone job
               search. In the classroom , parcipants lear job- application techniques, labor
               market charcteristics, and employer expectations concerning personal grooming
               and behavior in the work place. They take par in exercises designed to identify
               their skills and interests. They lear and practice interviewing skills and utilize
               group dynamics and other exercises to improve self-awarness and build
               self-esteem and confidence. Using a script in the telephone job search phase, job
               club parcipants contact employers on a daly basis to   arge     interviews.

How Provided: 
         Classrom instrction followed by both one-on-one supervision and
               group activity durg job searh. Job club is jointly operated by county GAIN
               sta and State EDD sta. The county has contrcted with EDD to provide this
               servce in tadem with GAI sta.

Partcipants:            664. Clients with some work history or job skils but who have been out
               of the labor market for a signifcant period of time would benefit most from this
               service. Clients in need of education services may choose to parcipate in job
               search fit.


Costs:            118, 381; $795. 19   per   parcipant.




Individual Job Search

Activity: Individual job searh occur under       the supervsion of a job servces worker
               who provides employment counseling and job referrs. Parcipants also utilize
               the telephone ban and EDD job orders.

How Proyided: 
         This is a parcipant drven activity. However, the parcipant s efforts
               are bolstered thugh one-on-one meetigs with county GAIN staf and
               contrcted EDD sta.

Partcipants:          437. Clients with goo recent work history and marketable skills are best
               suited for individual job searh.

 Costs:        $1, 001 619; $2 292. 03 per parcipant.




 The County of San Diego                            PROGRAM PROFILE
Job Skils Training

Activity:        The GAI parcipants determned via assessment to be in need of vocational
               skils traiing ar referred to the training development unit which is responsible
               for matching each client s training needs with an appropriate training provider.
               Some GAIN parcipants have enrolled in vocational skils training prior to GAIN
               registration and are allowed to continue their self- initiated program with GAIN
               approval and supportve services as needed.

How Provided: 
            Job skils tring is provided by adult schools, regional occupation
               progrs, communty colleges, JTA funded            tring providers and private
               schools in classroom settgs.

Partcipants:          The number of parcipants     is unkown. Clients with no marketable skills
               or with minal      skis reuig     upgrde wil benefit most frm these servces.
Costs:         No county GAI funds ar        spent on   traiing. Avaiable community resources are
               suffcient to meet the need.




Job Developmentl Job Placement

Activity:       The GAI job development sta work dictly with private employers and
               GAI parcipants to match job opportties with job-ready clients. Job
               developers utize ta crt progrs, fre applicant screning servces and quick
               response as incentives to employers to    hi
                                                      parcipants. Job placement services
               thugh EDD ar also used to augment al GAIN job services and job
               development activities.

How Provided:              These servces ar provide though one-on-one meetings. County
               GAI staf provide      both servces. Job   placement services ar   also provided
               contrcted EDD sta.

Partcipants:          Unkown. Clients determined at assessment to be job ready and likely to
               fmd employment though       addtional job search activity benefit most from these
               services.




The County of San Diego                           PROGRAM PROFILE
On-The-Job Training

Activity:        The GAI job developers work diectly with private employers to meet their
               needs by providig job-ready, pre screened job candidates. One incentive for
               employers is the on-the-job training (OJT) program which reimburses employers
               up to 50 percent of the parcipant s wage for a training period of up to 3 months.
               At the end of the traiing period, it is expected that the trnee wil be retained as
               a regular employee.

How Provided: 
        One-on-one counseling is utilized to screen and refer appropriate clients
               to employers. The OIT component is supported by contracted ITPA funding.

Partcipants:          234. OIT is of most value to parcipants who have some job skils and
               work history but nee a period of "brush-up " training to faciltate re-entcy into   the
               labor maret or to upgre old skills.

Costs:         $840, 00 in JTA fuds; $3, 589. 74 per parcipant.




Community Work Experience Program/PREP

Activity:         Communty work experience under GAI is caled pre-employment
               prepartion (PRE) and consists. of non-salared work experience in a public or
               prvate non-profitagency. The purose of the PRE assignent is to develop
               basic work behavior skils and a reference for futue employment opportnities.
               PREP assignents ar for 3 months (short-term PRE) or for up to 1 year
               (long-tenn PREP).

How Provided: 
         Scheduled one-on-one meetigs ar used to match avaiable PREP slots
               with client need for specifc tyes of work experience. The PRE slot
               development, assignment and monitoring are conducted by county GAIN staff.

Partcipants:          59. Clients with little or no employment history or who have been out of
               the labor market for an extended period wil benefit most frm PREP activities.
               Long-tenn PRE is designed for GAIN parcipants who fai to find employment
               after skils training and job searh and who need more extensive work experience
               to enhance their skis.

Costs:         $146, 872;   $2,489.35 per parcipant.




The County of San Diego                          PROGRAM PROFILE
Post-Placement (Follow-Up) Services

Activity:         For each GAIN parcipant      whoenters employment, the GAIN case manager
               conducts a 30- day follow-up to determine if the client has retaned the job. This
               activity may involve a direct contact with the client, the employer, or both. Those
               GAIN clients who go off of AFC due to employment are reminded of the
               availabilty of trsitional child care and Medi- Cal benefits.

How Provided: 
         Dirct contact via telephone or mai by case manager with the client
               and/or the employer. Prvided by county GAIN staff.

Partcipants:          Unkown.

Costs:         Included in case management.




Case Management

Activity:        When a GAI parcipant attends the initial GAIN apprasal, they ar assigned
                 GAI case manager who wi work with them while they parcipate in the
               progr. Case managers are s ia workers assigned by the GAI division to
               monitor and faciltate the parcipation of GAI clients. For each parcipant, the
               case manager is responsible for the followig functions: appraisal, scheduling,
               monitorg, cause determation/concilation, counseling, maitaiing case
               records,argig     for supportve services.

How Provided: 
         Case management is, for the most par, conducted though one-on-one
               interviews between county GAI sta and parcipants.

Partcipants:          12,774. Case management is essential for al parcipants thoughout
               enrollent in GAI.

Costs:         $3, 541,473;   $277. 24   per parcipant




The County of San Diego                              PROGRAM PROFILE
                                                                          Appendix A




                          Program Overview Statement for the
                   Greater Avenues for Independence (GAIN) Program
                                           as   operated by
                          County of San Diego, Department of Social Services

Welfare Reform In Son Diego County

        welfare refor efforts in San Diego County began in 1979. The     Board of
        Supervsors, respondig to staggerig growth in public assistace caseloads,
        placed an advisory intiative on the balot askig the county electorate, " Should
        repients of public assistace be requird to work in exchange for their
        benefits?" The overwhelmingly favorable response from San Diego voters (89.
        percent) reinorced the Board' s diection to the Deparment of Social Services to
        seek legislative authority and initiate actions to create employment service
        progrs which would reduce welfare dependency.
        The Board' s  action engendered the Foo Stap Workfare Demonstrtion Project
        in 1980 which proved the feasibilty of a " work for benefits " tye of progr.
        1982 , the county in conjunction with the State EDD implemented another Federal
        demonstrtion project, taetig AFC applicants and recipients, known as the
        Employment Prparation Progr (EP). Although termed " modestly
        successful " the rigorous evaluation of EPP drew national attention and
        demonstrted that it is possible to operate a cost-effective employment progr
        for the AFC population. Furermore, EPP proved the efficacy of a substatial
        intial investment in order to achieve signcant, long-term gais in reducing
        welfar dependency

        In 1985, the EPP was expanded in the San Diego metropolitan area and became
        the Satution Work Initiative Model (SWI). SWIM was a Federa
        demonstrtion project testing the feasibilty and impacts of a " satuted" AFC
        work progr which requird contiuous parcipation for all progr eligibles.
        Although the final evaluation report has not yet been published, an interim report
        indicates that a satution progr is both feasible and significantly beneficial to
        progr parcipants. Moreover, the fmal report is expected to indicate that
        SWI was also cost beneficial to progr operators.
        The design of California s Greater Avenues for Independence (GAIN) program,
        passed by the State Legislature in 1985, was to a large extent based on the EPP



The County of San Diego                    OVERVIEW STATEMENT                           A - 1
        and SWI models developed in San Diego County. Planning for San Diego
        GAI progr involved utilizing the experience and incorporatig the success
        enjoyed with EPP and SWI. At the same tie, the expertse of other
        community agencies was sought to help plan for those elements of GAIN that
        were new. Within the somewhat flexible design strcture allowed by the State,
        the County GAI Plan was developed, tailored to meet the specific needs of the
        county.

        The plan is not static, however, but continues to change and adapt to the needs
        and influences of the community includig the target population, the labor market
        and numerous cooperatig agencies and service providers.


Gols and Expetations
        The basis for GAI' s overall goal of unsubsidized employment for
        parcipants is an underlying philosophy and expectation that AFC recipients
        desir to work and wil do so if provided with the opportunity. Responsibility for
        meetig the goal is shared by the State and the county, who must provide a
        sufcient level of servces to meet the needs of the parcipants, as well as by the
        AFC recipients who ar expected to utilize the available services and steadily
        progrss towar self suffciency.

        The GAI progr s objectives for its parcipants include the provision of
        endurg abilties though an individualy taored mix of education, job search
        skis   trg   and work experience. Every achievement on the path to self
        sufciency is celebrated in order to reinorce newly acquired values as self
        confdence and determation gradualy replace hopelessness and dependency.

        For the AFC communty in genera, GAI' s objective is to engender a
        perception that welfar is a short-term assistance progr that, via GAIN
        provides neeed and meanngf servces and trats al parcipants with faiess
        and respect while re4ucing the overal level of welfare dependency. For the
        community at large, GAIN strves to reflect the positive image of a progr that
        helps people and is a cost-effective use of their tax dollars. Among the county
        private sector employers, the progr s goal is to be perceived as a good source
        of educated, trned, motivated and job-ready employees.

Approach and Attitudes

        The GAIN program is designed to serve all non-exempt employable AFC
        recipients along with volunteers from the exempt group. The GAIN is a
         satuation " program which requires continuous parcipation for all progr
        eligibles until they become employed, exempt, or ineligible for AFDC.


The County of San Diego                 OVERVIEW STATEMENT                           A-2
      GAI provides a comprehensive menu of services including basic education, job
      search, assessment, vocational trning, OJT, and work experience. The specific
      pathway among these components for each parcipant is determined by
      individual needs and allows for maximum client choice within the basic program
      strcture. The basic GAIN strategy is to provide a graduated level of services
      from the least to the most expensive in order to reserve high cost services for
      those most in need of them. An exception to this policy is the provision of
      education services (adult basic education , GED preparation and ESL) early in the
       progr.
       Basic competencies in readg, mathematics and English speakng ar        considered
       priary essential to success in al subsequent GAIN activities.
       GAI also provides the supportve services (child care, trsportation , and
       ancill expenses) necessar for parcipation thoughout each enrollee s activity
       in the program. The GAI clients with parcipation problems are provided with
       ample opportties to overcome their barers and cooperate with progr
       requirements before sanctions are imposed.

       There also exists an on- going commitment, initiated durng the program planning
       phase, to involve the community in GAIN policy and planning decisions. To be
       successful, the progr must work cooperatively with numerous other agencies
       both with and outside the county strctu. The program must be responsive to
       the needs of the communty whie remaig vigiant for opportnities to develop
       collaborative efforts to better serve mutual taget populations.

Challenges and Solutions

       Among the chalenges faced by San Diego        GAI program are several that,
       whie not necessary unque to San Diego County, required unque measures
        achieve resolution. For example, the provision of remedial education and ESL
        instrction to adults presented the problem of overcoming the clients ' reluctace
        to go " back to school." Furermore, the relatively large group of GAIN eligibles
        in need of ESL instrction   presented adtional problems of   identifying and
        talorig resoures to meet    this special need. The unique solution in San Diego
        County was the development of the GAI Learing Center model, the result of a
        pilot project conducted by the local JTA Administrtor, local school distrcts and
        county GAI sta. The Learing Center model featues individualzed education
        plans, computer-assisted instrction, and off campus, " store frnt" locations.
        Psychometrc testig and speciald servces for parcipants with learing
        disabilities ar also provided. Early outcome data is encourging and indicates
        that many parcipants achieve their education goals much more quickly than they
        would in traditional classrom settngs.



The County of San Diego                  OVERVIEW STATEMENT                               A-3
       Another unique effort being conducted in San Diego s GAIN progr is the Teen
       Parnt Progr which provides specialized GAIN services to pregnant and
       parenting teens who ar on AFC. The GAI Teen Specialists conduct outrach
       activities and orientations, develop child care plans, provide for transportation
       and ancilar needs and provide counseling and encouragement to teens to stay in
       or re-enter high school. The program works closely with school distrcts and
       other adolescent parent projects to provide the comprehensive range of services
       needed to conduct positive interventions and break the cycle of poverty and
       dependence before it becomes fully established in these young lives.

       In San Diego, we have also experienced a growing recognition of the important
       role that self-esteem plays in determining both individual and overal success.
       The components that are most successful in terms of both parcipation rates and
       outcomes seem to be those that attend to the issue of self-esteem and include
       self-esteem buidig exercises in their curcula. A curent challenge for San
       Diego GAI progr is to fmd ways to build in more self-esteem enhancing
       activities thoughout al GAIN components whether operated dictly or by
       contrctor. It is only by dictly tackling the problems associated with low self
       esteem among welfar recipients that we can help those individuals to overcome
       their fear of faiure, their hopelessness and dependency.

Outcomes
       Since GAI stad in San Diego County in October 1987, thugh June 1989,
       the progr has had signcant impacts on the employable AFC population.

                    22, 667                            and enrolled into GAIN.
                              parcipants have been oriented

                      922 parcipants have enrlled in GAIN Learing Centers.

        Of these, 1, 302 have achieved their educational goals: 539 obtained aGED, 700
        obtaed basic skis and 63 completed ESL classes.
                      089 parcipants have received  GAIN job searh services and are
                    better prepard to compete in the labor market.
                      767 parcipants have completed assessment prior to moving on into
                    vocational training, OJT, work experience or additional education.
                    172 teen parents have been enrolled into a specialzed program which

                    dependency.
                    helps young parnts complete high school and avoid long-term welfare

                     12, 346 GAIN registrts             either full- time or par- time
                                              have entered
                    employment and have generated a projected $29, 67, 901 in AFC grant
                    savmgs.



The County of San Diego                     OVERVIEW STA YEMENT                          A-4
       In adtion, the program has produced imeasurable positive impacts on the lives
       of thousands of parcipants who, because of their experience in GAIN , feel better
       about themselves and their future, provide a more positive role model for their
       childrn , and ar severa steps closer to their goal of self-suffciency.

Lessons Learned

       The single most importt lesson leared from San Diego County s experience is
       the critical importance of in eragency coordination and cooperation. We have
       been fortnate in San Diego to have a community of public agencies and
       educational institutions who share with us a high level of commtment to the
       philosophy and goals of the GAI program and a        fi  belief that, together, we
       can overcome bureaucrtic obstacles and make      GAIN   succeed.  No single agency
       can operate alone and separately and also be successful in reducing the negative
       impacts of povert, ignorace and despai. The clients we serve, the problems we
       must overcome, and the resources we must draw frm all overlap and, in many
       cases, ar diectly shared. What is required is an integrated collaboration
       involving multiple agencies which wil produce a more comprehensive service
       delivery system that can set cooperative priorities, share information, avoid
       duplication , and provide an appropriate and effective mix of services at the right
       places and at the right ties.

       To crate and       maita such a cooperative interagency network requirs strong
        commtment at the highest levels within each agency. Furermore, that spirt of
        commtment and cooperation must be trsferred downward and continually
        reinforced. Signficant efforts and attention ar required to develop and maintain
        the linkages, but the potential payoffs are wort the price. Examples of what can
        result from interagency collaboration include the GAIN Learing Center model
        and Teen Parnt Progr (descrbed earlier) along with the effective co- location
        of contrcted Job Servces and child car service staf with county GAIN staf at
        each GAIN offce. The interagency parership is strengthened though the
        sharg of physical space while service delivery to GAIN parcipants is enhanced
        by providing a one-stop service location. All sta on site are par of the " GAIN
        team" and quickly develop common goals, mutual respect and improved
        communications.

        With the implementation of the Federal JOBS program, every State in the countr
        is facing a mutual chalenge to get the progr up and running and to keep it
        running. Critical to this process is the progr s fundig level. Will JOBS be
        funded at suffcient levels for a suffcient period of tie to have a fai and
        reasonable chance to prove itself worthy of continued public support? Given the
        opportnity, the JOBS program, like GAIN in San Diego, can be demonstrated to
        be an effective and worthwhile investment and a productive tool for reducing
        welfare dependency.


The County of San Diego                    OVERVIEW STATEMENT                           A-5
                                             Appendix B





The County of San Diego   SAMPLE DOCUMENTS           B-1
                          .-'




                                                          COUNT' OF SAN OIE'::O
                                                             OF SOCIAl. SERVICES



                                                       EMPLOYMENT HISTORY

NAME:
                      LAST              FIRST                  MIDDLE                               SSA .:


ADDRESS.
                          STREET                CITY              ZIP                              PHONE ,.


WORK HISTORY - Start with last jOb and work back - include Military

            ! To                                                                                               Reason
, From             i Highest                Employer                               Duties
                   I Wages                                                                                   For Leaving




Licenses/Permits/Certificates



Special Skills (Language - EQuipment Oceration)




What you liked about your last job:




What you disliked about your las job:




Problems that affec you working (health. drugs. family. work experience)




Felony convictons?                         If yes, what for?

Highes school grae      campleted:                         E.D, or H.s. Diploma?

 If ye. name the year                       Trade school or college?

What proram?

 Dere or Certificae?                                                                            What year?



                                                                                    SIGNATURE                           DATE

   la' os   mil'
                              SAN DIEGO COUNTY - DEPT. OF SOCIAL SERVICES

                                                  GAIN SELF-APPRAISAL



NAM:	                                             CASE NAM:                                                   CASE


    PRIOR GAIN         Yes                IF YES 

    REGISTRATION                          WHT COUNTY:                                 OFFICE:                     DATE:


    HAVE YOU WORKED IN THE PAST 24 MONTHS?                       Yes	                HOW   MA MONTHS?
    AR YOU    WORKING NOW?         Yes	                                   EMF LOYE R I S   NAM

                                                                          ADDRESS

                               HOURLY WAGE                                START DATE


    HOW LONG HAVE YOU BEEN CONTINUOUSLY ON AFDC?                          HAVE YOU GONE OFF AID IN THE LAST 3 YEARS

                     APPLICANT	
                           MONTHS

                                                                          BECAUSE YOU WENT TO WORK?               Yes
                           YEARS                                          HOW MANY TIMES?


    AR YOU    IN SCHOOL OR TRAINING               Yes
         VOCATIONAL :                                                     EDUCATIONAL:
           NAM OF SCHOOL                                                  NAM OF COURSE
           TYPE OF TRAINING                                               TYPE OF COURSE
           START DATE                       END                           START DATE                        END
           NO. HOURS PER WEEK                                             NO. OF CREDITS

        I HAVE A CAR THAT RUNS.           Yes	                            I CAN USE THE BUS.          Yes

        I HAVE A DRIVER'     LICENSE.         Yes

        I NEED CHILD CARE      Yes	                                       MY CHILDRENS AGES:



        I HAVE OTHER PROBLEMS:




        REGISTRAT:	                                                                         DATE:

                                                      FOR COUNTY USE ONLY


 DEFERRA CODE         1==1     REVIEW DATE                                       VERIFICATION GIVEN          C=I

 CONTRACT #    1=1         SCHEDULED TO                                          APPOINTMNT DATE



 REFERR TO      CRS	    c=
                        r=
                                      IMMD

                                      DEFER
                                                     I F NOT t   REASON



 REFERRA TO COUNSELING         1::1           WHO:


 COMMNTS:




  CASE MAAGER	                                                                                      DATE
                           -(..)-          ))
                                           - - ,,"

                                              ()

                               CotJ of S8 D1 -                     of Sa     I8CM
                                             Gl CH au
Seion
 Ca Nam:                                                           Regisrat Nam:
 Ca No.                                                       -M/ Telephne ,.:                          Mess It:
  ddr:
        Re- Regisered               Referred Fro GAI Site
 CM:
                                                                 WI. It:                Telepbone It:


Seion
           Nam of Chldr              Birte                    Scbol Na                             Hours
                                                                                                                     Hos
                 La, Fir                                                                         To - Fro    Day &




SeiOD 3:
 Calft           lI:                                                       t Co:
 Pacty:
                                                              (!d)                                       (Pb
  Tn:
  Orentati Date:
                           () Ca     () Bu
                                              ..il'   Date:                               En Date:

                  IIY        tUY            WIAY.             THAY           FRY                 Sl'l1Y        SlJlY




Seon
         be aut th raeu an exc: of inOnBCD
             ar8D
       ch ca 
     bet1 th
                                                lI atteo, pr,
                                   of So Seca 8Z th Chd Ca Re Sece.
                                                                    re
       Signatur :                                                           Date:

Section 5:
  Caiver:                                                                   ReltiP:
  Acss :                                                                    Pbo It:

  Effecive Date:                       Ty   of Cae:


  CR:                                                                       Phone It:



 06-129 DSS (7/89) REV

                                     SAN DIEGO COUN-DEPARTMEN
                                                                     OF SOCIAL
                                              GAIN Attendance and Progress     SERVICES

                                                                           Report


               Par           cipant Name                            From:
                                                                    Case Manager

              SSA Numer
                                                                   Report for the month/quarter

             Case Numer                                            ending

                      oo 1
                                                                            Class/Subject
              The above- named participant in the GAIN Program is responsible

              for obtaining this verification in order to receive benefits

              and to continue 

                             in
             Failure to provide the current
                                this        program.

                                     information could mean the loss 

             benefits to the client and removal from your 

             cOoperation
                                      is     appreciated.                    program. Your
                                           AUTORIZATION FOR
                                                              RELEASE OF INFORMTION
         I hereby authorize the release and/or exchange of information

         regarding my attendace, 

                                  progress, participation
         ment in the educational component/Assessment     and/or assess­

                                                      Center
             the Departmnt of Social                  Services and the authorized, services
         provider.                                                                 between
                                  Signa ture
    Is participant enrolled?
                                               Date

                                      Yes
                                              Date
  Please comlete this 

  exlai ng any makings
                    section by checking the appropriate
                       other than "                                                       box and

  section.                          Satisfactory" in the
                                                                                          coments
                                               Satisfactory   Needs
                                                              Improvement
                  Attendance                                                  Unsa tisf   actory
                  Puctuali ty
                Progress
                Cooperation
Conuen ts



Instructor
                                                                     Date
Distr ibu                  tion:    Whi te   -School: Yellow-Case: Pink-Participant:
                GOlden-Case.
06-115 (9-88 Rev.

